APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
S.R. NEHAD; K.R. NEHAD; ESTATE
OF FRIDOON RAWSHAN NEHAD,
Plaintiffs-Appellants,
v.
NEAL N. BROWDER; CITY OF SAN DIEGO;
SHELLEY ZIMMERMAN, in her personal and
official capacity as Chief of Police,
Defendants-Appellees.
No. 18-55035
D.C. No. 3:15-cv-01386-WQH-NLS
OPINION
Appeal from the United States District Court
for the Southern District of California
William Q. Hayes, District Judge, Presiding
Argued and Submitted February 27, 2019
Southwestern Law School Los Angeles, California

1a

Filed July 11, 2019
Before: Sidney R. Thomas, Chief Judge, Michael
Daly Hawkins, Circuit Judge, and Dean D.
Pregerson,* District Judge.
Opinion by Judge Pregerson
SUMMARY**
Civil Rights
The panel affirmed in part and reversed in part
the district court’s summary judgment in favor of
defendants and remanded in an action alleging that a
City of San Diego police officer used excessive deadly
force when he shot and killed Fridoon Nehad.
The panel held that there were several genuine
disputes of material fact regarding plaintiffs’ Fourth
Amendment claim. At a broad level, the panel held
that a triable issue remained regarding the
reasonableness of the police officer’s use of deadly
force. More specifically, there were genuine disputes
about: (1) the officer’s credibility; (2) whether Nehad
posed a significant, if any, danger to anyone; (3)
*

The Honorable Dean D. Pregerson, United States
District Judge for the Central District of California, sitting by
designation.
**

This summary constitutes no part of the opinion of the
court. It has been prepared by court staff for the convenience of
the reader.

2a

whether the severity of Nehad’s alleged crime
warranted the use of deadly force; (4) whether the
officer gave or Nehad resisted any commands; (5) the
significance of the officer’s failure to identify himself as
a police officer or warn Nehad of the impending use of
force; and (6) the availability of less intrusive means of
subduing Nehad.
The panel further held that disputed factual
questions also precluded a grant of summary judgment
on qualified immunity grounds, as it was wellestablished at the time of the shooting that the use of
deadly force under the circumstances in this case,
viewed in the light most favorable to plaintiffs, was
objectively unreasonable.
The panel held that plaintiffs presented
sufficient evidence of police department customs,
practices, and supervisory conduct to support a finding
of entity and supervisory liability. Furthermore, the
district court never afforded plaintiffs an opportunity
to be heard before granting summary judgment on the
negligence and wrongful death claims sua sponte. The
panel therefore reversed the grant of summary
judgment in favor of defendants on plaintiffs’ Fourth
Amendment and state law claims.
The panel affirmed the grant of summary
judgment in favor of defendants on plaintiffs’ claim for
violation of their Fourteenth Amendment interest in
the companionship of their child. The panel held that
the police officer’s use of force, even if unreasonable,
did not evidence a subjective purpose to harm.
3a

COUNSEL
Daniel S. Miller (argued), Sean G. McKissick, J. Mira
Hashmall, and Louis R. Miller, Miller Barondess LLP,
Los Angeles, California, for Plaintiffs-Appellants.
George Frederick Schaefer (argued), Assistant City
Attorney; Kathy J. Steinman, Deputy City Attorney;
Mara W. Elliott, City Attorney; Office of the City
Attorney, San Diego, California; for DefendantsAppellees.
Scott J. Street, Baute Crochetiere & Hartley LLP, Los
Angeles, California; Brian Hardingham, Public Justice
P.C., Oakland, California; Adrienna Wong and Peter
Bibring, ACLU Foundation of Southern California, Los
Angeles, California; for Amici Curiae American Civil
Liberties Union of Northern California, American Civil
Liberties Union of Southern California, American Civil
Liberties Union of San Diego & Imperial Counties, and
Public Justice.
Lee H. Roistacher, Daley & Heft LLP, Solana Beach,
California, for Amici Curiae California State
Association of Counties, League of California Cities,
and International Municipal Lawyers Association.
OPINION
PREGERSON, District Judge:
On April 30, 2015, Officer Neal Browder of the
San Diego Police Department responded to a 911 call
4a

about a man making threats with a knife. Browder
arrived at the scene, where he encountered Fridoon
Nehad walking at a steady pace in Browder’s direction.
The subsequent series of events, which is in dispute,
culminated in Browder exiting his vehicle and, less
than five seconds later, fatally shooting Nehad.
Appellants brought Fourth Amendment,
Fourteenth Amendment, and state law claims against
Browder, San Diego Chief of Police Shelley
Zimmerman, and the City of San Diego. The district
court granted summary judgment to Appellees on all
claims.
We have jurisdiction under 28 U.S.C. § 1291.
Reviewing the district court’s grant of summary
judgment de novo, we affirm with respect to
Appellants’ Fourteenth Amendment claim, reverse
with respect to all other claims, and remand.
FACTUAL AND PROCEDURAL
BACKGROUND
Shortly after midnight on April 30, 2015,
Andrew Yoon encountered Fridoon Nehad outside the
bookstore where Yoon worked. Nehad showed Yoon an
unsheathed knife and said that he wanted to hurt
people. Nehad was incoherent and “didn’t seem like he
knew what was going on[,]” so Yoon returned to work
inside the store. A few minutes later, Nehad entered
the store without a knife in hand, again said he
wanted to harm people, then left the store via a side
door into an adjoining alley. Yoon called 911 and told
5a

the emergency dispatcher that Nehad had threatened
him with a knife.
Around 12:06 a.m., the police dispatcher put out
a “Priority 1” call for a “417 (Threatening w[ith]
weapon),” and indicated that a male in a back lot was
threatening people with a knife.1 San Diego Police
Department Officer Neal Browder volunteered to
respond to the call and drove to the scene in his police
cruiser.
Surveillance camera footage shows that Nehad
was walking down the alley behind the bookstore
toward the street before Browder arrived. Browder
turned his car from the street into the alley and turned
on his car’s high headlight beams. Browder did not
activate his car’s siren or police lights. Browder saw
two people in a parking lot adjoining the alley and,
soon after turning into the alley from the street, saw
Nehad in the alley. Browder confirmed with dispatch
that Nehad matched the description of the person
brandishing a knife.
Once in the alley, Browder brought his vehicle
to a halt and opened the driver’s side door. Nehad
continued to walk down the alley toward Browder and
the street. Browder’s vehicle advanced a short distance
with the driver’s door open before again coming to a

1

California Penal Code § 417 provides that anyone who
draws or exhibits a deadly weapon, other than a firearm, “in a
rude, angry, or threatening manner” is guilty of a misdemeanor.
Cal. Pen. Code § 417(a)(1).

6a

stop. Nehad continued to walk toward Browder at a
steady pace. Browder did not hear Nehad say
anything, and did not see Nehad change his pace or
make any sudden movements. Approximately twentyeight seconds after pulling into the alley and eighteen
seconds after opening his car door, Browder exited his
vehicle. Browder did not activate his body camera.
Eyewitness accounts of what happened next
differ. One witness, Andre Nelson, testified that Nehad
was stumbling forward at a “drunken pace” in a
nonagressive manner, “like he wasn’t all there,” while
“fiddling with something in his midsection.” Nelson
could not recall Browder audibly identifying himself as
a police officer, giving any type of warning, or saying
anything at all. Nelson did recall Browder extending
his left hand in a “stop” motion. No such motion is
clearly visible on the surveillance video. Another
witness, Albert Gallindo, testified that he heard
Browder say, “Stop, drop it” two or three times.2 Yoon,
who was still on the phone with the emergency
dispatcher when Browder arrived, recalled hearing
Browder say “Stop, drop it” one time, no more than a
“couple seconds” after Browder got out of the police
car. Browder did not recall identifying himself or
saying anything to Nehad. Video surveillance shows
Nehad slowed down a few moments after Browder
exited his vehicle, although it is unclear whether

2

Gallindo also testified that Browder said, “Throw it
down. Throw it down.” It is unclear, however, whether Gallindo
meant that Browder gave that command in addition to or as a
variant of, “Stop, drop it.”

7a

Browder perceived or could have perceived Nehad’s
change of pace.
Less than five seconds after exiting his vehicle,
Browder fired a single shot at Nehad, fatally striking
him in the chest. Nehad was approximately seventeen
feet away at the time Browder shot him.
A few hours later, after police investigators
arrived at the scene, they asked Browder whether he
saw any weapons and where in the alley they might
be. Browder told the investigators that he had not seen
any weapons. Browder’s attorney would not allow
investigators to ask Browder any more questions that
night. The investigators did not find any weapons in
the alley, and determined that Nehad had been
carrying a metallic blue pen when Browder shot him.3
On May 5, five days after the shooting, Browder
and his attorney met with homicide investigators at a
police station. Police officials provided Browder and his
attorney with surveillance video of the shooting, which
Browder and his attorney reviewed in a police
lieutenant’s office for approximately twenty minutes
before an interview commenced. During the interview,
Browder stated that he first saw Nehad when Nehad
was twenty-five to thirty feet from Browder’s car and
that Nehad was “aggressing” the car and “walking at
a fast pace . . . right towards [the] car.” Browder also
stated, for the first time, that he had thought Nehad
was carrying a knife, and that he had fired on Nehad
3

Investigators did find a knife sheath in the alley.

8a

because he thought Nehad was going to stab him.
Appellants, Nehad’s parents and estate, filed
suit against Browder, the City of San Diego, and San
Diego Chief of Police Shelley Zimmerman (collectively,
“Appellees”). In the operative Second Amended
Complaint (“SAC”), Appellants allege 42 U.S.C. § 1983
claims for Fourth and Fourteenth Amendment
violations and Monell and supervisory liability, two
civil rights claims under state statutes, and common
law claims for assault and battery, negligence, and
wrongful death. Appellees filed a motion for summary
judgment on seven of the nine claims, excluding the
SAC’s common law claims for negligence and wrongful
death.
The district court granted Appellees’ motion.
The court granted summary judgment on Appellants’
Fourth Amendment claim because, according to the
district court, Browder’s use of force was objectively
reasonable. The court granted summary judgment on
Nehad’s parents’ Fourteenth Amendment claim
because there was no evidence that Browder acted
with a purpose to harm unrelated to legitimate law
enforcement objectives. The court further concluded
that Browder was entitled to qualified immunity
because there was no clear precedent establishing that
Browder’s use of deadly force would be considered
excessive. The court also, in light of its determination
that no constitutional violation had occurred,
dismissed the Monell and supervisory liability claims
against all Appellees. Lastly, the court concluded that,
because Browder’s use of force was objectively
9a

reasonable, Appellees were entitled to summary
judgment on “all” state law claims.
Appellants now appeal the district court’s grant
of summary judgment.
STANDARD OF REVIEW
We review de novo a grant of summary
judgment to determine whether “a rational trier of fact
might resolve the issue in favor of the nonmoving
party.” Blankenhorn v. City of Orange, 485 F.3d 463,
470 (9th Cir. 2007). In so doing, we view the facts in
the light most favorable to the nonmoving party and
draw all inferences in that party’s favor. Id. We also
review de novo a district court’s grant of summary
judgment on qualified immunity grounds. Id.
ANALYSIS
A.

Whether a Jury Could Conclude that Browder’s
Use of Force Was Unreasonable

In Fourth Amendment excessive force cases, we
examine whether police officers’ actions are objectively
reasonable given the totality of the circumstances.
Byrd v. Phoenix Police Dep’t, 885 F.3d 639, 642 (9th
Cir. 2018); Bryan v. MacPherson, 630 F.3d 805, 823
(9th Cir. 2010). Our analysis must balance the nature
of the intrusion upon an individual’s rights against the
countervailing government interests at stake, without
regard for the officers’ underlying intent or
motivations. Graham v. Connor, 490 U.S. 386, 396–97
10a

(1989). Whether a use of force was reasonable will
depend on the facts of the particular case, including,
but not limited to, whether the suspect posed an
immediate threat to anyone, whether the suspect
resisted or attempted to evade arrest, and the severity
of the crime at issue. Id. at 396. Only information
known to the officer at the time the conduct occurred
is relevant. Cty. of Los Angeles v. Mendez, 137 S. Ct.
1539, 1546–47 (2017); Glenn v. Washington Cty., 673
F.3d 864, 873 n.8 (9th Cir. 2011).
1.

Whether Nehad Posed a Danger

The most important Graham factor is whether
the suspect posed an immediate threat to anyone’s
safety. Mattos v. Agarano, 661 F.3d 433, 441 (9th Cir.
2011) (en banc). The use of deadly force is only
reasonable if a suspect “poses a significant threat of
death or serious physical injury to the officer or
others.” Gonzalez v. City of Anaheim, 747 F.3d 789,
793 (9th Cir. 2014) (emphasis added) (internal
quotation omitted).
Here, there is a genuine dispute as to whether
Nehad posed a significant threat to Browder’s safety.4
To be sure, there is some evidence in the record that
Nehad did pose a threat to Browder. Browder stated

4

Although two bystanders were present in a parking lot
adjoining the alley, Browder testified that he did not believe that
anyone else was under threat of immediate bodily harm when he
shot Nehad, and there is no evidence that either bystander was or
felt threatened.

11a

that he thought Nehad had a knife, and two witnesses
heard Browder say some variant of, “Stop, drop it.”
Browder further testified that Nehad was “aggressing”
Browder’s vehicle, and that Browder thought Nehad
was going to stab him. The question on summary
judgment, however, is not whether some version of the
facts supports Appellees’ position, but rather whether
a trier of fact, viewing the evidence in the light most
favorable to Appellants, could find in Appellants’ favor.
Blankenhorn, 485 F.3d at 470. We therefore proceed by
viewing the evidence in the record through that lens.
a.

Browder’s Credibility

As an initial matter, “summary judgment is not
appropriate in § 1983 deadly force cases that turn on
the officer’s credibility that is genuinely in doubt.”
Newmaker v. City of Fortuna, 842 F.3d 1108, 1116 (9th
Cir. 2016). Here, approximately three hours after the
shooting, Browder told homicide investigators that he
did not see any weapons, and made no mention of
feeling threatened by Nehad. Five days later, however,
after consulting with his attorney and reviewing
surveillance footage inside a police station, Browder
claimed that he thought Nehad had a knife, that
Nehad was “aggressing” the car, and that he thought
Nehad was going to stab him. These possible
inconsistencies, along with video, eyewitness, and
expert evidence that belies Browder’s claim that
Nehad was “aggressing,” are sufficient to give rise to
genuine doubts about Browder’s credibility.

12a

b.

The Reasonableness of Browder’s
Beliefs

Appellees, relying upon an out of context
quotation from Wilkinson v. Torres, 610 F.3d 546, 551
(9th Cir. 2010), suggest that when examining the
immediacy of the threat a suspect posed, the “critical
inquiry is what the officer perceived.” Appellees are
mistaken. Where, as here, “an officer’s particular use
of force is based on a mistake of fact, we ask whether
a reasonable officer would have or should have
accurately perceived that fact.” See Torres v. City of
Madera, 648 F.3d 1119, 1124 (9th Cir. 2011).5
“[W]hether the mistake was an honest one is not the
concern, only whether it was a reasonable one.” Id. at
1127.
In that regard, Appellees assert that it was not
unreasonable for Browder to mistake a pen for a knife
because Browder knew that someone matching
Nehad’s description had been reported as carrying a
5

Wilkinson is not to the contrary. There, the question was
whether a reasonable officer could have believed fellow officers
were in danger where a suspect driver had failed to yield to police
sirens or commands and was accelerating his vehicle in a muddy
yard near two disoriented police officers. Wilkinson, 610 F.3d at
551. We explained that whether one of the disoriented officers
was, in actuality, out of the suspect’s vehicle’s trajectory was less
important than the shooting officer’s reasonable perception,
uncontradicted by any evidence and supported by bystander
testimony, that his fellow officer had been run over and was in
danger of being hit again. Id. We did not suggest, in Wilkinson or
elsewhere, that the objective reasonableness of an officer’s
response is dependent upon that officer’s subjective perceptions.

13a

knife and there is evidence that Nehad was “fiddling
with something” as he walked down the alley.6 A
reasonable trier of fact could, however, conclude that
Browder’s mistake was not reasonable. Appellants’
police practices expert opined that officers are trained
to recognize what suspects are carrying and to
distinguish pens from knives, and that Browder had
“very sufficient time to determine that it was not a
knife in Nehad’s hand and, in fact was a pen . . . .”
Furthermore, one of the homicide investigators
testified that the lighting in the alley was sufficient to
enable an observer to identify the color blue in the pen,
even taking into account the distance between
Browder and Nehad. Whether Browder reasonably
mistook the pen for a knife is therefore a triable
question of fact.
c.

Whether, Even if Armed, Nehad
Posed a Threat

Even if it were established that Browder
reasonably believed Nehad was carrying a knife, or
even if Nehad had actually been carrying a knife,
Browder’s use of lethal force was not necessarily

6

Simmie Barber, a bouncer at a nearby club, told
detectives that he had heard from Yoon that Nehad had a knife.
Nehad showed Barber the shiny, polished, silver tip of what
Barber understood to be a knife. Nehad did not threaten Barber
in any way, and Barber was not worried. Although none of this
information was known to Browder, Barber’s testimony could
support a finding of reasonable mistake, to the extent a factfinder
could conclude that Nehad actually showed Barber the metallic tip
of a pen and that Barber, too, mistook it for a knife.

14a

reasonable as a matter of law. That a person is armed
does not end the reasonableness inquiry. Glenn, 673
F.3d at 872; see also Hayes v. County of San Diego, 736
F.3d 1223, 1233 (9th Cir. 2013) (“[T]he mere fact that
a suspect possesses a weapon does not justify deadly
force.”) (alteration in original). Indeed, we have often
denied summary judgment in excessive force cases to
police officers who use force against armed individuals.
See, e.g., N.E.M. v. City of Salinas, 761 F. App’x. 698,
699–700 (9th Cir. 2019) (affirming denial of summary
judgment to officers who shot garden shear-wielding
suspect when he turned toward officers less than nine
feet away, after having swung shears at officers); S.B.
v. Cty. of San Diego, 864 F.3d 1010, 1014 (9th Cir.
2017) (finding triable issue where decedent was armed
with a knife); Hayes, 736 F.3d at 1233–34 (same);
Glenn, 673 F.3d at 878–79 (finding triable issue where
police used beanbag rounds on knife-wielding subject
prior to using lethal force); cf. Estate of Lopez v.
Gelhaus, 871 F.3d 998, 1017 (9th Cir. 2017) (denying
summary judgment where decedent was holding toy
AK-47 rifle).
Here, an eyewitness testified that Nehad
“wasn’t aggressive in nature” and “didn’t make any
offensive motions.” Browder himself testified that
Nehad did not say anything, make any sudden
movements, or move the supposed knife in any way.
Browder further testified that he did not believe
anyone else was under threat of immediate bodily
harm when he shot Nehad. When Browder fired on
Nehad, Nehad was seventeen feet away from Browder
and walking at what Appellees’ own expert described
15a

as a “relatively slow pace.” Appellants’ expert, Roger
Clark, explicitly opined that Nehad “was actually not
a lethal threat” to Browder. Under these facts, even if
Browder had reasonably perceived Nehad as holding
a knife, a reasonable factfinder could conclude that
Nehad did not pose a danger to anyone.
d.

Browder’s Role in Creating the
Danger

Appellees make much of the (asserted) fact that
Browder had less than five seconds between the time
he exited his vehicle and the moment he shot Nehad.
We recognize, as we have often done before, that
officers must act “without the benefit of 20/20
hindsight,” and must often make “split-second
judgments—in circumstances that are tense,
uncertain, and rapidly evolving—about the amount of
force that is necessary in a particular situation.”
Gonzalez, 747 F.3d at 794 (quoting Graham, 490 U.S.
at 396–97); see also Deorle v. Rutherford, 272 F.3d
1272, 1283 (9th Cir. 2001). Sometimes, however,
officers themselves may “unnecessarily creat[e] [their]
own sense of urgency.” Torres, 648 F.3d at 1127; see
also Porter v. Osborn, 546 F.3d 1131, 1141 (9th Cir.
2008) (“When an officer creates the very emergency he
then resorts to deadly force to resolve, he is not simply
responding to a preexisting situation.”).7 Reasonable
triers of fact can, taking the totality of the

7

Although Porter involved a Fourteenth Amendment
claim, we looked to “analogous jurisprudence” involving Fourth
Amendment excessive force claims. Porter, 546 F.3d at 1141.

16a

circumstances into account, conclude that an officer’s
poor judgment or lack of preparedness caused him or
her to act unreasonably, “with undue haste.” Torres,
648 F.3d at 1126.
Here, evidence in the record could support such
a determination. As described above, Nehad was
walking down the alley at a relatively slow pace
without saying anything or threatening anyone. The
lighting was sufficient to allow an observer to identify
the color of a pen at a distance of seventeen feet, yet
Browder, responding to a call about a man brandishing
a knife, drove his car several car lengths into the alley,
opened his door, then drove further toward Nehad
before exiting his vehicle.8 Although Browder himself
testified that it is important that police officers
identify themselves because people may respond
differently once they know they are interacting with a
police officer, it is undisputed that Browder never
identified himself as a police officer or warned Nehad
that he was going to shoot. Two witnesses, including
Browder himself, could not recall Browder giving any
verbal command or saying anything at all. Video
surveillance shows that as Nehad continued to walk
toward Browder, Browder stepped out sideways from
the protection of his vehicle door, closed the door, and,
less than two seconds later, fired.

8

Nelson, who was facing away from Nehad until
approximately ten seconds prior to the shooting, was able to see
Nehad “fiddling with something in his midsection” from his
position five to ten feet behind Browder.

17a

Appellants’ expert emphasized that Browder
had “a lot of time” to determine what to do before
shooting Nehad, but “squandered all the opportunities
tactically.” Appellants’ expert further elaborated, “It is
not a five second decision[,]” and, “[Browder] had all
the time he wanted to take . . . .”9 Given such evidence,
a reasonable factfinder could conclude that any sense
of urgency was of Browder’s own making.
2.

The Severity of the Crime at Issue

Also relevant to the reasonableness inquiry is
the severity of the crime at issue. Graham, 490 U.S. at
396. We have applied this factor in two slightly
different ways. In Miller v. Clark County, 340 F.3d 959
(9th Cir. 2003), for example, we emphasized the
government’s interest in apprehending criminals, and
particularly felons, as a factor “strongly” favoring the
use of force. Miller, 340 F.3d at 964. Under our logic in
Miller, a particular use of force would be more
9

Appellees make several references to the “21-foot rule
that a suspect can close a 21-foot distance before an officer can
react.” Although a suspect’s distance from an officer is
undoubtedly a relevant factor in a reasonableness analysis, there
is evidence in the record calling into question the applicability of
the “21-foot rule” here. As Appellees’ expert, Geoffrey T.
Desmoulin, acknowledged, Browder had more time than average
to react because, although the average time for an officer to
remove his gun, aim, and shoot is 1.5 seconds, Browder had
already unholstered his weapon, and took only 0.83 seconds to
raise his weapon, aim, and fire. Furthermore, even if the “rule”
were applicable, that fact would have to be balanced against
Browder’s potential role in creating the urgent circumstances that
made the rule applicable. Torres, 648 F.3d at 1127.

18a

reasonable, all other things being equal, when applied
against a felony suspect than when applied against a
person suspected of only a misdemeanor. Here, police
dispatch records suggest that Browder was assigned a
“Priority 1” call regarding a “417 (Threatening w[ith]
weapon)” offense. Because brandishing a knife in
violation of California Penal Code § 417 is only a
misdemeanor, a strict application of Miller’s reasoning
would provide little, if any, basis for a use of deadly
force.
Perhaps recognizing this (notwithstanding their
citation to Miller), Appellees argue that the police
dispatcher’s decision to characterize Yoon’s 911 call as
a “417” misdemeanor should not be dispositive because
Nehad’s reported conduct “posed a serious threat” and
could have been characterized as felonious. This
argument reflects the second way in which we have
sometimes applied the severity of the crime factor.
Although the danger a suspect posed is a separate
Graham consideration, courts, including this one, have
used the severity of the crime at issue as a proxy for
the danger a suspect poses at the time force is applied.
See, e.g., Lowry v. City of San Diego, 858 F.3d 1248,
1257 (9th Cir. 2017) (holding, where officer reasonably
concluded that a burglary might be in progress,
severity-of-crime factor weighed in favor of use of force
because burglary is “dangerous” and “can end in
confrontation leading to violence”), cert. denied sub
nom. Lowry v. City of San Diego, Cal., 138 S. Ct. 1283
(2018); Smith v. City of Hemet, 394 F.3d 689, 702–03
(9th Cir. 2005) (en banc) (holding, where suspect had
physically assaulted his wife but was standing alone
19a

on his porch when officers arrived,“the nature of the
crime at issue provid[ed] little, if any, basis” for the
use of force); Conatser v. City of N. Las Vegas, No.
206CV01236PMPLRL, 2009 WL 10679150, at *6 (D.
Nev. Nov. 9, 2009) (finding severity of the crime “very
low” where no crime was in progress when police
arrived, even though suspect might have threatened
his mother before police arrived).
This severity-of-crime as proxy-for-danger
approach, however, does little to support Appellees’
arguments here. Even if Nehad had made felonious
threats or committed a serious crime prior to
Browder’s arrival, he was indisputably not engaged in
any such conduct when Browder arrived, let alone
when Browder fired his weapon. A jury could,
therefore, conclude that the severity of Nehad’s crimes,
whether characterized as a misdemeanor or an already
completed felony, did not render Browder’s use of
deadly force reasonable. See Harris v. Roderick, 126
F.3d 1189, 1203 (9th Cir. 1997) (“[T]he fact that [the
suspect] had committed a violent crime in the
immediate past is an important factor but it is not,
without more, a justification for killing him on
sight.”).10
3.

Whether Nehad Was Resisting or Seeking
to Evade Arrest

10

We applied this principle in Harris notwithstanding the
fact that the suspect had fired upon, and possibly killed, a federal
agent—a crime far more serious than Nehad’s suspected offense.
See Harris, 126 F.3d at 1193.

20a

In analyzing whether a use of force was
reasonable, we also look to whether the suspect was
resisting arrest. Graham, 490 U.S. at 396. Here, video
of the incident clearly shows that Nehad made no
attempt to flee from Browder. Appellees argue,
nevertheless, that Nehad resisted by failing to obey
Browder’s command to, “Stop, drop it.” As discussed
above, although two witnesses heard Browder give a
command a few seconds before firing, neither Nelson
nor Browder himself had any such recollection. Thus,
whether Nehad resisted arrest by ignoring Browder’s
command is, at best, a disputed issue of fact.
4.

Other Factors

Other factors, in addition to the three Graham
factors, may be pertinent in deciding whether a use of
force was reasonable under the totality of the
circumstances. Smith, 394 F.3d at 701; see also
Franklin v. Foxworth, 31 F.3d 873, 876 (9th Cir. 1994).
Here, we consider whether Browder provided Nehad
appropriate warnings and whether less intrusive
alternatives to deadly force were available.
a.

Failures to Warn
I.

Failure to Order to Halt

In some cases, the absence of a warning or order
to halt prior to deploying forceful measures against a
suspect may suggest that the use of force was
unreasonable. Deorle v. Rutherford, 272 F.3d at
1283–84. In Deorle, for example, we determined that
21a

“[s]hooting a person who is making a disturbance
because he walks in the direction of an officer at a
steady gait with a can or bottle in his hand is clearly
not objectively reasonable” where “the officer neither
orders the individual to stop nor drop the can or bottle
. . . .” Id. at 1284 (finding use of beanbag round
unreasonable). We recognize, of course, that it may not
always be feasible for an officer to warn a suspect prior
to deploying force. Here, however, as discussed above,
there is evidence that, like the suspect in Deorle,
Nehad was walking toward Browder at a slow, steady
pace, with no indication of violent intent. And here, as
in Deorle, there is evidence that Browder never
ordered Nehad to halt or to drop whatever he was
carrying. Such facts could support a conclusion that
Browder’s decision to shoot Nehad was unreasonable.
ii.

Failure to Warn that Failure to
Comply Would Result in the Use
of Deadly Force

Whether an officer warned a suspect that failure
to comply with the officer’s commands would result in
the use of force is another relevant factor in an
excessive force analysis. Deorle, 272 F.3d at 1284. The
seemingly obvious principle that police should, if
possible, give warnings prior to using force is not
novel, and is well known to law enforcement officers.
Indeed, it was already common police practice to warn
recalcitrant suspects of imminent forceful measures
when we decided Deorle nearly two decades ago. Id.
(“Appropriate warnings comport with actual police
practice. Our cases demonstrate that officers provide
22a

warnings, where feasible, even when the force used is
less than deadly.”); see also Glenn, 673 F.3d at 864
(holding that an officer’s use of a beanbag round
without an appropriate prior warning weighed against
reasonableness, even though officers had earlier
warned the suspect that they would use lethal force
and the shooting officer did yell “beanbag, beanbag”
before firing).11 A prior warning is all the more
important where, as here, the use of lethal force is
contemplated. Even assuming Browder did command
Nehad to “Stop, drop it,” there is no dispute that
Browder never warned Nehad that a failure to comply
would result in the use of force, let alone deadly force.12
A jury could consider Browder’s failure to provide such
a warning as evidence of objective unreasonableness.
iii. Failure to Identify as a Police
Officer
Although not specifically discussed by the
parties, we have also considered as relevant a police

11

Although Appellees assert that Browder did not have
time to give a warning, whether a warning was feasible here is
also a triable issue.
12

A suspect’s refusal to comply with police commands
despite warnings of serious or deadly consequences, could, of
course, weigh in favor of the use of force, either as an “other”
factor or as an indication of the threat posed by the suspect.
Conversely, a jury could view a suspect’s behavior, including
failure to comply with police commands, as innocuous where an
officer gave no indication of any possible, let alone deadly,
consequences.

23a

officer’s failure to identify himself or herself as such.
See, e.g., McKenzie v. Lamb, 738 F.2d 1005, 1010–11
(9th Cir. 1984); see also, e.g., Vlasak v. Las Vegas
Metro. Police Dep’t, 213 F. App’x 512, 514 (9th Cir.
2006) (unpublished disposition); Bluestein v. Groover,
940 F.2d 667, 1991 WL 136179, at *2 (9th Cir. 1991)
(unpublished disposition); Kiles v. City of N. Las Vegas,
No. 2:03CV01246 KJDPAL, 2006 WL 1967469, at *2,
4 (D. Nev. July 12, 2006), aff’d, 276 F. App’x 620 (9th
Cir. 2008). Here, Browder acknowledged he was
trained to identify himself as a police officer and that
it is important to do so, particularly before using force.
However, it is undisputed that Browder never verbally
identified himself as a police officer or activated his
police lights or siren. A jury could consider those
failures in assessing Nehad’s response to Browder and
in determining whether Browder’s use of force was
reasonable.
b. Failure to
Alternatives

Use

Less Intrusive

Another relevant factor is “the availability of
alternative methods of capturing or subduing a
suspect.” Smith, 394 F.3d at 703 (citing Chew v. Gates,
27 F.3d 1432, 1441 n.5 (9th Cir. 1994)). Police need not
employ the least intrusive means available; they need
only act within the range of reasonable conduct. Glenn,
673 F.3d at 876 (citing Scott v. Henrich, 39 F.3d 912,
915 (9th Cir. 1994)). “However, ‘police are required to
consider [w]hat other tactics if any were available,’ and
if there were ‘clear, reasonable and less intrusive
alternatives’ to the force employed, that ‘militate
24a

against finding [the] use of force reasonable.’” Id.
(alterations in original) (quoting Bryan v. MacPherson,
630 F.3d 805, 831 (9th Cir. 2010)) (internal quotation
marks omitted).
Here, Browder carried a taser, mace, and a
collapsible baton in addition to his firearm. Appellants’
expert described these less-lethal alternatives as
“obvious,” and it is undisputed that, at the time of the
shooting, Nehad was within the taser’s effective range.
However, Browder admitted he never considered any
of the available alternatives. Although Appellees
contend the alternatives were not practical for various
reasons, that is a question of fact best resolved by a
jury. See id. at 877 (questions of fact precluded
summary judgment where plaintiff’s expert testified
that taser, rather than beanbag round, was the “‘ideal
less-lethal option to temporarily disable the decedent,
at approximately 15 feet away’”).
5.

Conclusion

Viewing the evidence in the light most favorable
to Appellants, we conclude that a rational trier of fact
could find that Browder’s use of deadly force was
objectively unreasonable.
B.

Fourteenth Amendment

Nehad’s parents also assert a claim for violation
of their Fourteenth Amendment interest in the
companionship of their child. Police action sufficiently
shocks the conscience, and therefore violates
25a

substantive due process, if it is taken with either “(1)
deliberate indifference or (2) a purpose to harm[,]
unrelated to legitimate law enforcement objectives.”
A.D. v. California Highway Patrol, 712 F.3d 446, 453
(9th Cir. 2013) (internal quotation marks omitted).
Here, Appellants argue Browder’s shooting satisfies
the purpose to harm standard because Nehad
assertedly posed no danger to Browder or anyone
else.13
“The purpose to harm standard is a subjective
standard of culpability.” Id. It is well established that
a use of force intended to “teach a suspect a lesson” or
“get even” meets this standard. Id. at 1141. For
example, in A.D., we affirmed the denial of the
defendant officer’s motion for judgment as a matter of
law in light of evidence that the decedent posed no
danger to anyone and repeatedly insulted the officer
before the officer shot her twelve times, even though
no other officer opened fire and a supervisor had
ordered the officer to stop. A.D., 712 F.3d at 451. We
have also reversed a grant of summary judgment
where a police officer, who had reasonably fired
eighteen shots at a suspect who had just stabbed
another officer, walked in a circle around the suspect
and then took a running start before stomping on the

13

“The lower ‘deliberate indifference’ standard applies to
circumstances where actual deliberation is practical.” A.D., 712
F.3d at 453 (internal quotation marks omitted). Although
Appellants suggest in a brief footnote that the deliberate
indifference standard “may apply,” we limit our analysis to the
argument Appellants actually raise.

26a

suspect’s head three times. Zion v. County of Orange,
874 F.3d 1072, 1077 (9th Cir. 2017).
The circumstances here are distinguishable
from those in A.D. and the like. While those cases, like
this case, did involve some evidence that a suspect
posed no danger, they also involved some additional
element suggesting an improper motive on the part of
the shooting officer. Here, there is no evidence that
Browder fired on Nehad for any purpose other than
self-defense, notwithstanding the evidence that the use
of force was unreasonable.
Although “[o]bjective reasonableness is one
means of assessing whether” conduct meets the
“shocks the conscience” standard, an unreasonable use
of force does not necessarily constitute a Fourteenth
Amendment substantive due process violation.
Brittain v. Hansen, 451 F.3d 982, 991 n.1 (9th Cir.
2006) (citing Moreland v. Las Vegas Metropolitan
Police Dep’t, 159 F.3d 365, 371 n.4 (9th Cir. 1998) (“[I]t
may be possible for an officer’s conduct to be
objectively unreasonable yet still not infringe the more
demanding standard that governs substantive due
process claims.”)). In Gonzalez, for example, we
reversed a grant of summary judgment in officers’
favor on a Fourth Amendment excessive force claim,
but nevertheless affirmed the grant of summary
judgment on a Fourteenth Amendment claim because
“plaintiffs produced no evidence that the officers had
any ulterior motives for using force . . . .” 747 F.3d at
797–98; see also Hayes, 736 F.3d at 1231.

27a

We acknowledge that some district courts have
indeed denied summary judgment on Fourteenth
Amendment claims in the absence of evidence of bad
intent separate and apart from evidence of an
objectively unreasonable use of force. See, e.g., F.C., III
v. Cty. of Los Angeles, No. CV 10-169 CAS (RZX), 2011
WL 13127347, at *4 (C.D. Cal. Sept. 13, 2011);
Ramirez v. Cty. of San Diego, No. 06 CV 1111JM
(JMA), 2009 WL 1010898, at *6–7 (S.D. Cal. Apr. 15,
2009). The circumstances of those cases, however, are
easily distinguished from those presented here. In FC,
III, for example, there was evidence that two officers
shot a fleeing suspect in the back. 2011 WL 13127347,
at *2. In Ramirez, there was evidence that an officer
shot a fleeing robbery suspect twice in the leg and
then, while the suspect was on the ground and possibly
raising his hands in surrender, reloaded and shot the
suspect six more times in the chest. 2009 WL 1010898,
at *2.
Thus, although most meritorious purpose to
harm claims will involve evidence of ulterior motive or
bad intent separate and apart from evidence of an
unreasonable use of force, we decline to hold that such
evidence is required as a matter of law. In some cases,
a use of force might be so grossly and unreasonably
excessive that it alone could evidence a subjective
purpose to harm. Here, Browder’s use of force, even if
unreasonable, does not present such a case. We
therefore affirm the district court’s grant of summary
judgment on the Fourteenth Amendment claim.
C.

Qualified Immunity
28a

A government official’s entitlement to qualified
immunity depends on “(1) whether there has been a
violation of a constitutional right; and (2) whether that
right was clearly established at the time of the officer’s
alleged misconduct.” Lal v. California, 746 F.3d 1112,
1116 (9th Cir. 2014). Courts may examine either prong
first, depending on the relevant circumstances. Id.
Here, the district court granted Browder qualified
immunity on the second prong.
A review of the district court’s order, however,
reveals that the court construed the facts in the light
most favorable to Browder, asserting as established
fact not only Browder’s version of events, but also
other facts favorable to Browder, such as the disputed
fact that Browder verbally warned Nehad to “Stop[,]
Drop it.” “[W]hen there are disputed factual issues
that are necessary to a qualified immunity decision,
these issues must first be determined by the jury
before the court can rule on qualified immunity.”
Morales v. Fry, 873 F.3d 817, 824 (9th Cir. 2017)
(citing commentary to Ninth Circuit Model Civil Jury
Instruction 9.34 (2017)); see also Espinosa v. City &
Cty. of San Francisco, 598 F.3d 528, 532 (9th Cir.
2010). As discussed above, there are numerous
genuine disputes of material fact, which preclude a
grant of summary judgment on qualified immunity.
Appellees argue that even if, under the
Appellants’ version of the facts, a constitutional right
was violated, that right was not clearly established at
the time of the shooting. That argument is
unconvincing. In determining whether Browder’s
29a

mistake as to what the law requires was reasonable,
and thus whether he is entitled to qualified immunity
under the clearly-established prong, we “assume []he
correctly perceived all of the relevant facts and ask
whether an officer could have reasonably believed at
the time that the force actually used was lawful under
the circumstances.” Torres, 648 F.3d at 1127 (internal
quotation marks omitted). This analysis must be made
“in light of the specific context of the case, not as a
broad general proposition.” S.B., 864 F.3d at 1015.
There need not be a prior case “directly on point,” so
long as there is precedent “plac[ing] the statutory or
constitutional question beyond debate.” Id.
Under Appellants’ version of the facts, Browder
responded to a misdemeanor call, pulled his car into a
well-lit alley with his high beam headlights shining
into Nehad’s face, never identified himself as a police
officer, gave no commands or warnings, and then shot
Nehad within a matter of seconds, even though Nehad
was unarmed, had not said anything, was not
threatening anyone, and posed little to no danger to
Browder or anyone else. Appellees cannot credibly
argue that the prohibition on the use of deadly force
under these circumstances was not clearly established
in 2015. Torres, 648 F.3d at 1128 (“[F]ew things in our
case law are as clearly established as the principle
that an officer may not ‘seize an unarmed, nondangerous suspect by shooting him dead’ in the
absence of ‘probable cause to believe that the [] suspect
poses a threat of serious physical harm . . . .’” (quoting
Tennessee v. Garner, 471 U.S. 1, 11 (1985))). Indeed,
nearly twenty years ago, we explained that it was
30a

sufficiently established that a police officer could not
reasonably use a beanbag round on “an unarmed man
who: has committed no serious offense, . . . has been
given no warning of the imminent use of such a
significant degree of force, poses no risk of flight, and
presents no objectively reasonable threat to the safety
of the officer or other individuals.” Deorle, 272 F.3d at
1285.
Although Appellees attempt to distinguish
Deorle because the suspect there was suicidal and
officers took several minutes to observe him before
using less than lethal force, those facts, to the extent
they are distinguishing, weigh against qualified
immunity in this case. Here, there is no evidence that
any eyewitness to the shooting considered Nehad to be
a threat. In light of the evidence that Browder could
have taken more time to evaluate the situation,
Browder’s brief observation of Nehad before using
lethal force only makes Browder’s conduct less
reasonable. Browder is therefore not entitled to
qualified immunity under the clearly established
prong.
D.

Monell and Supervisory Liability

The district court granted summary judgment in
favor of Zimmerman and the City on Appellants’
Monell claim and in favor of Zimmerman on
Appellants’ supervisory liability claim on the grounds
that (1) there was no constitutional violation, and (2)
Appellants presented no evidence that “any policy or
deficient training was a ‘moving force’ behind the
31a

shooting.”14 As discussed above, there are genuine
disputes of material fact regarding the first basis for
the district court’s decision.
The record also belies the district court’s second
conclusion. As an initial matter, Appellants need not
show evidence of a policy or deficient training;
evidence of an informal practice or custom will suffice.
See Los Angeles Cty. v. Humphries, 562 U.S. 29, 30, 36
(2010); Trevino v. Gates, 99 F.3d 911, 918 (9th Cir.
1996). Appellants submitted evidence that: (1) 75% of
the San Diego Police Department’s officer-involved
shootings were avoidable; (2) the Nehad shooting was
approved by the department, which took no action
against Browder; and (3) the department looks the
other way when officers use lethal force. Indeed, Chief
Zimmerman explicitly affirmed that Browder’s
shooting of Nehad “was the right thing to do,” and the
department identified Browder as the victim of the
incident and conducted his interview several days after
the shooting, once Browder had watched the
surveillance video with his lawyer. This evidence is
sufficient to create a triable issue at least as to the

14

A local government is liable for a constitutional violation
if its policies, official decisions, or informal customs cause the
violation. See City of St. Louis v. Praprotnik, 485 U.S. 112, 121
(1988). “A defendant may be held liable as a supervisor under [42
U.S.C.] § 1983 if there exists either (1) his or her personal
involvement in the constitutional deprivation, or (2) a sufficient
causal connection between the supervisor’s wrongful conduct and
the constitutional violation.” Starr v. Baca, 652 F.3d 1202, 1207
(9th Cir. 2011) (internal quotation marks omitted); see also Larez
v. City of Los Angeles, 946 F.2d 630, 646 (9th Cir. 1991).

32a

existence of an informal practice or policy and, thus,
Monell and supervisory liability.
E.

State Law Claims
1.

Triable Issues of Fact Preclude Summary
Judgment

The district court concluded that because
Browder’s use of force was objectively reasonable,
Appellees were entitled to summary judgment “on all
state law claims.” This included not only Appellants’
state civil rights claims under California Civil Code §§
52.1 and 52.3 and Appellants’ assault and battery
claim, but also two claims, for negligence and wrongful
death, on which Appellees never sought summary
judgment. As discussed at length above, whether
Browder’s use of force was objectively reasonable is a
disputed issue of fact. We therefore reverse the district
court’s grant of summary judgment on all state law
claims.15

15

Appellees also argue, briefly, that Appellants’ state civil
rights claims under California’s Bane Act require threats or
intimidation other than an underlying use of excessive force. We
have squarely rejected that argument, as has the California Court
of Appeal. See Reese v. Cty. of Sacramento, 888 F.3d 1030, 1043
(9th Cir. 2018) (discussing Cornell v. City & Cty. of San Francisco,
17 Cal. App. 5th 766 (2017)). Although Bane Act claims do require
the specific intent to deprive a person of constitutional rights,
such intent can be proven by evidence of recklessness. Id. at 1045.

33a

2.

Sua Sponte Grant of Summary Judgment
on Negligence and Wrongful Death
Claims

Appellees do not dispute that Appellants’ state
law claims for negligence and wrongful death were not
the subject of Appellees’ motion for summary judgment
and were not briefed to the district court. A district
court may only grant summary judgment sua sponte if
the losing party has reasonable notice that the claims
are at issue and an opportunity to be heard. Norse v.
City of Santa Cruz, 629 F.3d 966, 971–72 (9th Cir.
2010). Here, Appellants were not provided with such
notice or opportunity. We therefore reverse the district
court’s grant of summary judgment on Appellants’
negligence and wrongful death claims for that
additional reason.16
CONCLUSION
We conclude that there are several genuine
disputes of material fact regarding Appellants’ Fourth
Amendment claim.

16

Appellants raise the additional argument that summary
judgment was improper because state law negligence claims are
judged by different standards than federal constitutional claims.
We have observed that state negligence law is indeed broader
than federal Fourth Amendment law. See Vos v. City of Newport
Beach, 892 F.3d 1024, 1037–38 (9th Cir. 2018). Because, however,
we reverse the district court’s grant of summary judgment on
Appellants’ state law claims for the reasons discussed above, we
need not and do not reach any question regarding the potential
differences between state law and constitutional claims.

34a

At a broad level, a triable issue remains regarding the
reasonableness of Browder's use of deadly force. More
specifically, there are genuine disputes about: (1)
Browder's credibility; (2) whether Nehad posed a
significant, if any, danger to anyone; (3) whether the
severity of Nehad's alleged crime warranted the use of
deadly force; (4) whether Browder gave or Nehad
resisted any commands; (5) the significance of
Browder's failure to identify himself as a police officer
or warn Nehad of the impending use of force; and (6)
the availability of less intrusive means of subduing
Nehad. These disputed factual questions also preclude
a grant of summary judgment on qualified immunity
grounds, as it was well-established at the time of the
shooting that the use of deadly force under the
circumstances here, viewed in the light most favorable
to Appellants, was objectively unreasonable.
Appellants have also presented sufficient evidence of
police department customs, practices, and supervisory
conduct to support a finding of entity and supervisory
liability. Furthermore, the district court never afforded
Appellants an opportunity to be heard before granting
summary judgment on the negligence and wrongful
death claims sua sponte. We therefore reverse the
grant of summary judgment on Appellants' Fourth
Amendment and state law claims. We affirm,
however, the grant of summary judgment on
Appellants' Fourteenth Amendment claims.
AFFIRMED IN PART; REVERSED IN
PART; and REMANDED.
Each party to bear its own costs on appeal.
35a

APPENDIX B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
S.R. NEHAD, an individual, K.R.
NEHAD, an individual, ESTATE OF
FRIDOON RAWSHAN NEHAD,
Plaintiffs,
v.
SHELLEY ZIMMERMAN, in her
personal and official capacity as Chief
of Police, NEAL N. BROWDER, an
individual, CITY OF SAN DIEGO, a
municipality, and DOES 1 through 10,
inclusive,
Defendants.
CASE NO. 15cv1386 WQH - NLS
ORDER
HAYES, Judge:
The matter before the Court is the motion for
summary judgment (ECF No. 116) filed by Defendants
Neal N. Browder, Shelley Zimmerman, and the City of
San Diego.

36a

BACKGROUND
On August 28, 2015, Plaintiffs S.R. Nehad, K.R.
Nehad, and the Estate of Fridoon Rawshan Nehad
(collectively “Plaintiffs”) filed a Second Amended
Complaint. Plaintiffs allege that Defendant Neal N.
Browder is liable under 42 U.S.C. § 1983 for violating
the Fourth Amendment rights of Fridoon Rawshan
Nehad (“Nehad”) by using excessive force and for
violating the Fourteenth Amendment rights of S.R.
Nehad and K.R. Nehad by depriving them of the
companionship of their child. Plaintiffs further allege
a § 1983 Monell claim against the Chief of Police
Shelley Zimmerman and the City of San Diego and a
§ 1983 Monell claim for failure to supervise against
Zimmerman. Plaintiffs allege claims under state law
against all Defendants.
FACTS
Just after midnight on April 30, 2015, an
individual clerking at an adult bookstore store in the
Midway District of San Diego called 911 dispatch to
report that a man had threatened him with a knife.
Police dispatch asked the clerk to stay on the line and
immediately put out a broadcast that a suspect was
threatening people with a knife. The suspect was
described as an Asian or Hispanic man, between fifty
or sixty years old, wearing a red shirt and gray
sweater. The “hot call” was assigned the highest
priority possible by dispatch. Because this was a high
risk situation, dispatch activated the Emergency Tone
to limit radio traffic.
37a

Officer Browder responded to the call. Officer
Browder was first on the scene and initially saw two
civilians in the parking lot. Officer Browder made a
left turn into an alley, turned his headlights to high
beam, and stopped his vehicle. Officer Browder saw
the suspect in the alley walking toward his vehicle.
Officer Browder confirmed the description of the
suspect by communicating with dispatch.
Officer Browder observed the suspect cross from
the left side of the alley to the right side of the alley
and advance toward him. Officer Browder testified,
[] I initially saw Fridoon as he was
approaching the car, then I confirmed the
description with communications. . . .
[A]fter I confirmed that he was the right
person that I had, that’s when I noticed
that it appeared to me that he had a
knife in his hand, and that’s when I
threw the mic in the passenger seat and
then put the car into park, and that’s
when I got out of the car.
(ECF No. 118 at 9).
Officer Browder exited his marked patrol car
and drew his handgun. Officer Browder was carrying
a taser, mace, and a collapsible baton at the time he
exited his patrol car. Officer Browder took a step to the
left and closed the door. Officer Browder testified
“When I saw him as he was aggressing me, he didn’t
slow down. . . . it appeared to me he was definitely
38a

focusing on me and was walking toward me with that
purpose – with a purpose . . . I felt that he was walking
– he was walking to stab me with the knife because
that’s what I saw. That’s what I saw in his hand.”
(ECF No. 118 at 13). Officer Browder testified that
Nehad was holding a “pointy metallic object” in his
hand, “his arm was bent and it appeared that it was –
the weapon was being pointed at me.” Id. at 16-17.
Officer Browder testified at his deposition as follows:
Q: Did he make any threatening gesture
towards you?
A: Can you explain what you mean by
“threatening”?
Q: Did he ever ... did he raise his arm
above his head at any point in time?
A: No.
Q: Did he make any thrusting motion
with either of his arms?
A: Well, he had what appeared to me the
knife in his hand, and it was held in this
manner here. . .
Q: And when you observed that, about
how far away was he from you, if you
could estimate?
A: I’d estimate... maybe a car length, a
39a

car length and a half.
(ECF No. 138-3 at 87-88). Officer Browder fired his
handgun hitting Nehad in the chest. No weapons were
found at the scene. Nehad had a pen in his hand.
Officer Browder testified at his deposition that
he did not recall saying anything to the suspect prior
to firing his gun. Three witnesses at the scene gave
testimony that they heard Officer Browder give a
verbal warning to Nehad prior to firing his weapon.
One witness testified that he heard Officer Browder
say “Stop” and “Drop it” “two to three times” before he
heard a gunshot. (ECF No. 118-1 at 4). The witness
who reported the threat to dispatch testified that he
heard the police officer say “something along the lines
of ‘Stop. Drop it,’ and then I heard the gunshot.” (ECF
No. 117-3 at 8). A witness who was approximately ten
steps from Officer Browder at the time of the shooting,
testified that he observed Officer Browder put his
hand out in a gesture to tell the suspect to stop. The
witness testified that the suspect was “fiddling with
something in his midsection” about ten steps from
Officer Browder walking toward Officer Browder.
(ECF No. 118-2 at 4-5). The witness stated, “It wasn’t
in an aggressive manner.” Id. at 5. The witness
testified:
Q: And you testified the object you saw
that he was fiddling with in his left hand,
you weren’t sure what it was –
A: No. . . . But he was fiddling with it and
40a

it was shiny and silver like in color.
Q: And you testified you thought it might
be a gun?
A: That would be my assumption, but I
don’t know what it is. So it could be a
weapon of opportunity. . . . It could have
been anything. It could have been ninja
stars for all I know. Like – but I didn’t
know what it – what it was.
Id. at 8.
Thirty-three seconds elapsed between the time
Officer Browder arrived in the alley and the time he
fired his handgun. Less than five seconds elapsed
between the time Officer Browder got out of his car
and the time he fired his handgun. Plaintiffs’ expert
testified that Nehad was approximately “17 feet” from
Officer Browder at the time of the shooting. (ECF No.
118-3 at 10). Defendants’ expert testified that it would
have taken Nehad “several seconds” to reach Officer
Browder at the pace Nehad was walking. (ECF No.
138-3 at 333.) Expert witnesses employed by the
parties provided conflicting evidence regarding
reasonable alternatives to the use of deadly force
under the facts of this case.
Officer Browder was wearing a body-worn
camera and did not activate his body-worn camera. A
stationary video camera on a building in the alley
recorded Officer Browder arrive and turn his vehicle
41a

into the alley. The video shows the suspect appear and
walk at steady pace toward Officer Browder’s vehicle.
The video shows Officer Browder exit his vehicle and
the suspect continue to advance toward Officer
Browder. The video shows Officer Browder shoot the
suspect at a distance of between fifteen and twenty
feet. The video shows the suspect begin to slow less
than a second before he was shot by Officer Browder.
Officer Browder gave a voluntary interview five
days after the shooting. Before the interview, Officer
Browder and his attorney were given the video of the
shooting. Officer Browder stated in the interview that
he believed Nehad was holding a knife and aggressing
him. Officer Browder returned to his duties after the
shooting and was not disciplined for the shooting.
Nehad had convinced multiple people that he
was armed with a knife on the night of the shooting
and in the days before the shooting. On April 24, 2015,
Nehad threatened to stab a caller while in the Midway
District. On April 25, 2015, Nehad was detained by
police after a hotel security guard reported Nehad had
threatened him with a knife. The weapon was in fact
a pen. Nehad was also contacted in the Midway
District after it was reported that a man was
threatening people with a weapon.
Approximately five minutes before the shooting,
the clerk at the adult book store who made the 911 call
told the dispatcher that the man identified as Nehad
threatened him with a knife. A few minutes before the
call by the clerk at the adult bookstore, another
42a

witness saw what he later reported to police as a knife
in Nehad’s hand.
CONTENTIONS OF THE PARTIES
Defendant Browder contends that he is entitled
to summary judgment on the grounds that he did not
violate the Fourth or Fourteenth Amendment rights of
Nehad and Plaintiffs. Defendant Browder asserts that
the undisputed facts in the record show that he
reasonably believed he faced an immediate threat of
serious bodily injury or death, and that his use of force
was reasonable under the circumstances. Defendant
Browder further asserts that the undisputed facts
establish that he is entitled to qualified immunity.
Defendants City of San Diego and Shelley Zimmerman
contend that there is no Monell1 liability and no
supervisory liability because there was no
constitutional violation of Plaintiffs’ civil rights and no
facts to support supervisor liability. All Defendants
contend that the state claims for deprivation of civil
rights, assault and battery, and negligence fail as a
matter of law.
Plaintiffs contend that summary judgment must
be denied because the objective factors do not justify
the force used against Nehad by Officer Browder.
Plaintiffs assert that no serious crime was occurring
and that Nehad was unarmed. Plaintiffs assert that
Nehad made no threatening motions toward Officer
Browder or anyone else, and that Nehad held his pen
1

Monell v. Dep’t of Soc. Servs., 436 U.S. 658 (1978).

43a

out in the open where Officer Browder could see it.
Plaintiffs assert that a ballpoint pen does not look like
a knife, and that a reasonable officer of Officer
Browder’s experience and training should be able to
distinguish a knife from a pen. Plaintiffs assert that
Officer Browder was in a secure position with room to
retreat and that a reasonable jury could find that
Officer Browder used more force than necessary under
the circumstances. Plaintiffs further contend that
Officer Browder is not entitled to qualified immunity
because he violated a “clearly established right”
relying upon precedent in Deorle v. Rutherford, 272
F.3d 1272 (9th Cir. 2001).
APPLICABLE STANDARD
Summary judgment is appropriate if there is no
genuine issue as to any material fact and the moving
party is entitled to a judgment as a matter of law. See
Fed. R. Civ. P. 56(c). The moving party has the initial
burden of demonstrating that summary judgment is
proper. See Adickes v. S.H. Kress & Co., 398 U.S. 144,
159-60 (1970). The burden then shifts to the opposing
party to provide admissible evidence beyond the
pleadings to show that summary judgment is not
appropriate. See Celotex Corp. v. Catrett, 477 U.S. 317,
322, 324 (1986).
To avoid summary judgment, the nonmovant
must designate which specific facts show that there is
a genuine issue for trial. See Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 256 (1986); Harper v.
Wallingford, 877 F.2d 728, 731 (9th Cir. 1989). A
44a

“material” fact is one that is relevant to an element of
a claim or defense and whose existence might affect
the outcome of the suit. T.W. Elec. Serv., Inc. v. Pac.
Elec. Contractors Ass’n, 809 F.2d 626, 630 (9th Cir.
1987). The materiality of a fact is thus determined by
the substantive law governing the claim or defense.
See Anderson, 477 U.S. at 248, 252; Celotex, 477 U.S.
at 322; Taylor v. List, 880 F.2d 1040, 1045 (9th Cir.
1989).
ANALYSIS
I.

Constitutional violation

The Fourth Amendment permits law
enforcement officers to use force “‘objectively
reasonable’ in light of the facts and circumstances
confronting them.” Graham v. Connor, 490 U.S. 386,
397 (1989). “Proper application requires careful
attention to the facts and circumstances of each
particular case, including the severity of the crime at
issue, whether the suspect posed an immediate threat
to the safety of the officers or others, and whether he
is actively resisting arrest or attempting to evade
arrest by flight.” Id. at 396. “Other relevant factors
include the availability of less intrusive alternatives to
the force employed, whether proper warnings were
given and whether it should have been apparent to
officers that the person they used force against was
emotionally disturbed.” Glenn v. Washington Cty., 673
F.3d 864, 872 (9th Cir. 2011). “[T]he ‘most important’
factor under Graham is whether the suspect posed an
‘immediate threat to the safety of the officers or
45a

others.’” George v. Morris, 736 F.3d 829, 838 (9th Cir.
2013) (quoting Bryan v. MacPherson, 630 F.3d 805,
826 (9th Cir. 2010)).
“The ‘reasonableness’ of a particular use of force
must be judged from the perspective of a reasonable
officer on the scene, rather than with the 20/20 vision
of hindsight,” and “must embody allowance for the fact
that police officers are often forced to make splitsecond judgments—in circumstances that are tense,
uncertain, and rapidly evolving—about the amount of
force that is necessary in a particular situation.”
Graham, 490 U.S. at 396–97. “With respect to the
possibility of less intrusive force, officers need not
employ the least intrusive means available so long as
they act within the range of reasonable conduct.”
Hughes v. Kisela, 862 F.3d 775, 780 (9th Cir. 2016).
At this stage, “all justifiable inferences are to be
drawn in [the plaintiff’s] favor.” Anderson, 477 U.S. at
255. The Court of Appeals has recently “noted that
‘[b]ecause [the question of excessive force] nearly
always requires a jury to sift through disputed factual
contentions, and to draw inferences therefrom, we
have held on many occasions that summary judgment
or judgment as a matter of law in excessive force cases
should be granted sparingly.’” Hughes, 862 F.3d at 782
(quoting Santos v. Gates, 287 F.3d 846, 853 (9th Cir.
2002)).
Viewing the facts in the light most favorable to
Plaintiffs, the Court concludes that the first factor
noted in Graham, the severity of the crime at issue,
46a

weighs in favor of the reasonableness of Officer
Browder’s actions. Officer Browder responded to a hot
call that a suspect was threatening people with a knife
at midnight in the Midway District. Officer Browder
received a hot call to investigate a serious crime and
could reasonably anticipate that he would encounter a
suspect with a knife. Officer Browder had no
indication that the dispatch call involved mental
illness or emotional distress.2 See Hughes v. Kisela,
862 F.3d 775, 780 (9th Cir. 2017) (finding that the first
factor weighed in favor of plaintiffs in an excessive
force case where the officer was responding to welfare
check with no crime reported).
The second and “most important” factor in
determining the reasonableness of the use of force is
“whether the suspect posed an immediate threat to the
safety of the officers or others.” George, 736 F.3d at 838
(internal quotation omitted). In this case, the
undisputed facts in the record show that Officer
Browder was responding to a potentially dangerous
situation involving a suspect reported to be
threatening people with a knife. Officer Browder
initially observed two civilians and then observed an

2

Nehad did suffer from mental illness. The record
contains information regarding numerous instances of threatening
conduct by Nehad which had been reported to police beginning as
early as in 2004, many of which involved knives. (ECF No. 118-4
at 11-14). However, the Court only considers evidence known to
Officer Browder in assessing the objective reasonableness of the
force used in this case. See Kingsley v. Hendrickson, 576 U.S. __,
135 S.Ct. 2466, 2473 (2015); Hayes v. County of San Diego, 736
F.3d 1223, 1233 (9th Cir. 2013).

47a

individual fitting the description of the suspect
approaching down an alley toward his vehicle, arm
bent at the elbow with a pointy metallic object in his
hand. Officer Browder confirmed the description of the
suspect with dispatch, as the suspect continued to
advance toward his vehicle. Officer Browder exited his
vehicle with his weapon drawn believing that the
suspect had a knife. All of the actions taken by Officer
Browder were consistent with his stated belief that the
suspect had a knife in his hand. Three civilian
witnesses at the scene heard Officer Browder verbally
warn the individual saying “Stop” and “Drop it.” A
witness testified that Officer Browder put his hand out
in a gesture to tell the suspect to stop. A witness ten
steps away from Officer Browder testified that the
suspect was “fiddling with something in his
midsection”. . . “shiny and silver like in color.” (ECF
No. 118-2 at 5, 8). The Court concludes that the
objective facts in this record support Officer Browder’s
belief that the suspect was advancing toward him with
a knife and posed an immediate threat to his safety.3
The only evidence in this record that Officer Browder’s
belief was not reasonable is the discovery that the
“pointy metallic object” was a pen and not a knife, a
fact known to Officer Browder only after the decision
to shoot had been made. (ECF No. 118 at 13).
The third factor cited in Graham is whether the

3

In this case, the material facts are not in dispute. The
evidence includes a video recording which captured the actions of
Officer Browder and Nehad, and the testimony of civilian
witnesses who had a view of the entire incident.

48a

suspect was resisting or seeking to evade arrest. The
entire event in this case took place in thirty-three
seconds. Officer Browder was required to make a splitsecond decision to use deadly force. There is evidence
in the record that Officer Browder attempted warnings
by stating “Stop. Drop It.” However, the opportunity to
warn and the opportunity to consider using less
intrusive force were necessarily limited by the less
than five seconds that elapsed from the time Officer
Browder left his police car and the shooting. Opinions
of experts hired by the parties differ as to whether less
than deadly force was a reasonable alternative under
the facts.
In this case, Officer Browder was responding to
a hot call describing a suspect who had reportedly
threatened the person making the 911 call with a
knife. Officer Browder immediately observed two
civilians on the scene and the suspect advancing down
an alley with his arm bent and a pointy metallic object
that appeared to be a knife in his hand. Witnesses at
the scene testified that the suspect was “fiddling with
something in his midsection” and that Officer Browder
warned the suspect to “Stop. Drop it.” (ECF No. 118-2
at 5). Believing that the suspect was advancing toward
him with a knife, Officer Browder exited his vehicle
with his handgun drawn. After warning the suspect,
Officer Browder shot the suspect fifteen to twenty feet
from his location. It is an undisputed fact in this
record that “Nehad had convinced multiple people that
he was armed with a knife the night of the shooting
and in the days before the shooting.” (ECF No. 146-1
at 12). The objective, undisputed facts in this record
49a

support Officer Browder’s perception that Nehad posed
an immediate threat to his safety under the facts and
circumstances presented.
Expert witnesses employed by the parties
provide conflicting testimony regarding reasonable
alternatives to the use of deadly force. Plaintiffs’
expert offers the opinion that Officer Browder had
obvious reasonable alternatives that he was required
to take rather than opt for the use of lethal force in
this set of facts.4 However, “the appropriate inquiry is
whether [Officer Browder] acted reasonably, not
whether [he] had less intrusive alternatives available
to [him].” Scott v. Henrich, 39 F.3d 912, 915 (9th Cir.
1994). In Scott, the Court of Appeals explained:
Requiring officers to find and choose the
least intrusive alternative would require
them to exercise superhuman judgment.
In the heat of battle with lives potentially
in the balance, an officer would not be
able to rely on training and common
sense to decide what would best
accomplish his mission. Instead, he
would need to ascertain the least
intrusive alternative (an inherently
subjective determination) and choose

4

“They include (but are not limited to) simply not
confronting [Nehad] one-on-one (Back-up units were due to arrive
in seconds), tactically repositioning to cover to gain time and
properly assess the true nature of any perceived threat, using less
lethal weapons in his possession, etc.” (ECF No. 138-3 at 443).

50a

that option and that option only.
Imposing such a requirement would
inevitably induce tentativeness by
officers, and thus deter police from
protecting the public and themselves. It
would also entangle the courts in endless
second-guessing of police decisions made
under stress and subject to the exigencies
of the moment.
Officers thus need not avail themselves
of the least intrusive means of
responding to an exigent situation; they
need only act within that range of
conduct we identify as reasonable.
Id. In Peterson on behalf of L.P. v. Lewis Cty., 697 F.
App’x 490, 491 (9th Cir. 2017), sheriff deputies
responded to a 911 call stating that a man identified as
“Steven Peterson” was trying to break into their
mobile home and that the man had tried to kick the
door down and stabbed the front door with a knife.
Officer McKnight responded to the call and spotted an
individual closely matching the suspect’s description
that he believed was the suspect. Believing that the
suspect was armed with a knife, Officer McKnight
exited his patrol car and made contact with Peterson.
Peterson’s right hand was visible but his left hand was
concealed in his sweatshirt pocket. Officer McKnight
identified himself as police officer and told Peterson
that he needed to see his hands. Peterson started to
pace back and forth and kept his left hand hidden
inside of his pocket. Officer McKnight drew his gun,
51a

Peterson continued to ignore his commands, leaned
forward and took two steps toward Officer McKnight.
Officer McKnight shot Peterson four times when
Peterson was fifteen-twenty feet away. Peterson was
unarmed. The entire interaction lasted one minute and
eleven seconds. The district court concluded that a
reasonable jury could find that Officer McKnight’s use
of force was not reasonable but that Officer McKnight
was entitled to qualified immunity. Peterson v. Lewis
Cty., 2014 WL 58005 (W.D. Wash. 2014). The Court of
Appeals found that the district court erred in granting
qualified immunity. Peterson v. Lewis Cty., 663 F.
App’x 531 (2016). The United States Supreme Court
vacated the judgment and remanded to the Court of
Appeals for further consideration in light of White v.
Pauly, 580 U.S. – , 137 S. Ct. 548 (2017) (per curiam).
McKnight v. Peterson, 137 S. Ct. 2241 (2017). On
remand, the Court of Appeals concluded that the
district court erred by finding that there were material
factual disputes regarding whether Officer McKnight’s
use of deadly force was reasonable. The Court of
Appeals stated:
The record reflects that Peterson refused
to heed McKnight’s commands and
started to charge McKnight. At the time
he used force, McKnight knew that a
person matching Peterson’s description
was in the area and might be armed with
a knife. Given these facts, McKnight’s
actions were reasonable; he did not act
with excessive force in violation of
Peterson’s constitutional rights.
52a

Peterson, 697 F. App’x at 491.5 While this unpublished
case is not precedent, the factual similarities with the
case before this Court are significant and define a
range of conduct found to be reasonable by the Court
of Appeals.
At the time that Officer Browder used force, he
had confirmed that the description of the suspect
matched the person approaching him holding a shiny
metallic object in his hand with his arm bent at the
elbow. At the time that Officer Browder used force,
Officer Browder had reason to believe that the suspect
approaching him had used a knife to threaten people
just a few minutes earlier. Officer Browder warned the
suspect approaching him to “Stop. Drop it.” Officer
Browder used his weapon against the suspect fifteen
to twenty feet away that he had reason to believe was
armed with a knife. The entire incident took thirtythree seconds. Given these facts, the relevant factors
in Graham weigh in favor of finding that the force
used was objectively reasonable. Drawing another
conclusion based upon potential alternatives to the use
of deadly force would be “second-guessing of police
decisions made under stress and subject to the
exigencies of the moment.” Scott, 39 F.3d at 915. The
Court concludes that Officer Browder is entitled to
summary judgment in his favor on the grounds that
there was no violation of Nehad’s Fourth Amendment

5

The Court of Appeals further stated: “Even if McKnight
had acted unreasonably, Peterson failed to identify any clearly
established law putting McKnight on notice that, under the facts,
his conduct was unlawful.” Id.

53a

right.
As to the Fourteenth Amendment claim,
Plaintiffs allege that the Officer Browder violated
Plaintiffs’ liberty interest in the companionship of
their eldest child and only son, a right secured by the
Fourteenth Amendment. “The Ninth Circuit recognizes
that a parent has a constitutionally protected liberty
interest under the Fourteenth Amendment in the
companionship and society of his or her child. . . .”
Curnow v. Ridgecrest Police, 952 F.2d 321, 325 (9th
Cir. 1991). In A. D. v. California Highway Patrol, 712
F.3d 446, 453 (9th Cir. 2013), the Court of Appeals
explained:
Police conduct violates due process if it
“shocks the conscience.” Porter v. Osborn,
546 F.3d 1131, 1137 (9th Cir. 2008).
Conscience-shocking actions are those
taken with (1) “deliberate indifference” or
(2) a “purpose to harm . . . unrelated to
legitimate law enforcement objectives.”
Id. The lower “deliberate indifference”
standard applies to circumstances where
“actual deliberation is practical.”
Wilkinson v. Torres, 610 F.3d 546, 554
(9th Cir. 2010). However, in
circumstances where an officer cannot
practically deliberate, such as where “a
law enforcement officer makes a snap
judgment because of an escalating
situation, his conduct may only be found
to shock the conscience if he acts with a
54a

purpose to harm unrelated to legitimate
law enforcement objectives.” Id.
In this case, Officer Browder had no time to
deliberate and the heightened “purpose to harm”
standard applies. Id. There are no facts in this record
to support liability on the grounds that Officer
Browder acted with a purpose to harm unrelated to
legitimate law enforcement objectives. Officer Browder
is entitled to summary judgment on Plaintiffs’ claim
under 42 U.S.C. § 1983 that he violated Plaintiffs’
liberty interest secured by the Fourteenth
Amendment.
II.

Qualified Immunity

Assuming a constitutional violation, “[q]ualified
immunity attaches when an official’s conduct ‘does not
violate clearly established statutory or constitutional
rights of which a reasonable person would have
known.’” White, 137 S.Ct. at 551, (quoting Mullenix v.
Luna, 577 U.S. – , 136 S. Ct. 305, 308 (2015) (per
curiam)). “The purpose of qualified immunity is to
strike a balance between the competing ‘need to hold
public officials accountable when they exercise power
irresponsibly and the need to shield officials from
harassment, distraction, and liability when they
perform their duties reasonably.’” Hughes, 862 F.3d at
782 (quoting Groh v. Ramirez, 540 U.S. 551, 567
(2004)). The United States Supreme Court recently
stated that “qualified immunity is important to society
as a whole and . . . effectively lost if a case is
erroneously permitted to go to trial.” White, 137 S. Ct.
55a

at 552 (internal quotations and citations omitted). At
summary judgment,
an officer will be denied qualified
immunity in a Section 1983 action only if
(1) the facts alleged, taken in the light
most favorable to the party asserting
injury, show that the officer’s conduct
violated a constitutional right, and (2)
the right at issue was clearly established
at the time of the incident such that a
reasonable officer would have understood
[his] conduct to be unlawful in that
situation.
Torres v. City of Madera, 648 F.3d 1119, 1123 (9th Cir.
2011).
Under the second prong of the qualified
immunity test, the Court must decide if the alleged
violation of Nehad’s constitutional right against
excessive force under the Fourth Amendment “was
clearly established at the time of the officer’s alleged
misconduct.” S.B. v. Cty of San Diego, 864 F.3d 1010,
1015 (9th Cir. 2017) (quoting C.V. by and through
Villegas v. City of Anaheim, 823 F.3d 1252, 1255 (9th
Cir. 2016) (citations omitted)). Officer Browder is
entitled to qualified immunity unless it was
“‘sufficiently clear’ that ‘every reasonable official would
have understood that what he was doing violates
[Plaintiff’s] right.’” Ashcroft v. al-Kidd, 563 U.S. 731,
741 (2011) (quoting Anderson v. Creighton, 483 U.S.
635, 640 (1987)).
56a

After identifying the context-specific conduct,
“[t]he relevant inquiry is whether existing precedent
placed the conclusion that [the officer] acted
unreasonably in these circumstances ‘beyond debate.’”
Mullenix, 136 S. Ct. 305, 309 (quoting al-Kidd, 563
U.S. at 741). The Supreme Court has repeatedly stated
that “clearly established law” should not be defined “at
a high level of generality.” al–Kidd, 563 U.S. at 742.
“[T]he clearly established law must be ‘particularized’
to the facts of the case.” White, 580 U.S. – , 137 S.Ct.
at 552 (quoting Anderson, 483 U.S. at 640). In White,
the Supreme Court concluded that the Court of
Appeals failed to identify a case in which an officer
acting under similar circumstances was held to have
violated the Fourth Amendment. The Supreme Court
explained:
Instead, the majority relied on Graham,
Garner, and their Court of Appeals
progeny, which—as noted above—lay out
excessive-force principles at only a
general level. Of course, “general
statements of the law are not inherently
incapable of giving fair and clear
warning” to officers, United States v.
Lanier, 520 U.S. 259, 271, 117 S.Ct.
1219, 137 L.Ed.2d 432 (1997), but “in the
light of pre-existing law the unlawfulness
must be apparent,” Anderson v.
Creighton, supra, at 640, 107 S.Ct. 3034.
For that reason, we have held that
Garner and Graham do not by
themselves create clearly established law
57a

outside “an obvious case.” Brosseau v.
Haugen, 543 U.S. 194, 199, 125 S.Ct. 596,
160 L.Ed.2d 583 (2004) (per curiam ); see
also Plumhoff v. Rickard, 572 U.S. ––––,
––––, 134 S.Ct. 2012, 2023, 188 L.Ed.2d
1056 (2014) (emphasizing that Garner
and Graham “are ‘cast at a high level of
generality’”).
Id.
In the specific context of this case, Officer
Browder responded to a hot call of a suspect
threatening people with a knife after midnight. Officer
Browder identified the suspect in an alley with other
civilians nearby. The suspect was holding a metallic
object at waist level advancing toward the officer.
Believing that the suspect was advancing with a knife,
Officer Browder warned the suspect to “Stop. Drop it.”
Officer Browder used deadly force when the suspect
was fifteen-twenty feet away. The entire incident was
over in approximately thirty-three seconds.
Before this Court can impose liability on Officer
Browder, the Court must identify precedent as of April
30, 2015, that put Officer Browder “on clear notice that
using deadly force in these particular circumstances
would be excessive.” S.B., 864 F.3d at 1015. “While the
case law does not require a case directly on point, for
a right to be clearly established, existing precedent
must have placed the statutory or constitutional
question beyond debate.” White, 137 S. Ct. at 551.
(internal quotations and citations omitted). “[T]he
58a

clearly established inquiry must be undertaken in
light of the specific context of the case, not as a broad
general proposition, especially in the Fourth
Amendment context, where it is sometimes difficult for
an officer to determine how the relevant legal doctrine,
here excessive force, will apply to the factual situation
the officer confronts.” S.B., 864 F.3d at 1015 (internal
citations omitted); see Estate of Lopez by and through
Lopez v. Gelhaus, 871 F.3d 998 (9th Cir. 2017) (“The
district court erred by failing ‘to identify a case where
an officer acting under similar circumstances . . . was
held to have violated the Fourth Amendment.’”) (citing
White, 137 S.Ct. at 552).
Plaintiff asserts that Deorle v. Rutherford, 272
F.3d 1272 (9th Cir. 2001) provided clear notice to
Officer Browder that the use of deadly force was
objectively unreasonable under the circumstances of
this case. In Deorle, the officer responded to a call from
a woman seeking help for her distressed husband,
Deorle. Deorle was upset, drunk, and suicidal. At
different points, Deorle brandished a hatchet, shouted
“kill me,” threatened to “kick [a police officer’s] ass,”
and walked around with an unloaded crossbow. Id. at
1276-77. At least thirteen officers responded to the
request for back up. Officer Rutherford observed
Deorle for five to ten minutes from the cover of some
trees. Deorle started shouting at the officers while
carrying an unloaded plastic crossbow in one hand and
what may have been a bottle of lighter fluid in the
other hand. Officer Rutherford shouted at Deorle to
put down the crossbow and Deorle discarded it. Deorle
began walking in the direction of Officer Rutherford.
59a

Officer Rutherford waited until Deorle reached a
predetermined point then fired a twelve-gauge shotgun
loaded with a bean bag round. Deorle was hit in the
face and suffered permanent injuries.
In contrast to Deorle, Officer Browder was called
to the scene at midnight to locate a suspect reported to
have threatened an individual with a knife. This
dispatch call was not a welfare check or a report from
a distressed family member. Officer Browder was
immediately confronted with an individual that fit the
description of the suspect advancing in his direction
holding in his hand what Officer Browder believed was
a knife. Unlike the officer in Deorle, who observed
Deorle for a significant amount of time, Officer
Browder was forced to react to the facts presented
within thirty seconds and was forced to decide what
level of force was necessary within five seconds from
exiting his patrol car. The facts of Deorle differ
significantly from the facts presented to Officer
Browder and are not sufficiently analogous to place
Officer Browder on fair notice that it was objectively
unreasonable to use deadly force under the facts of this
case.
Plaintiffs have not identified any preexisting
precedent establishing that Officer Browder’s use of
deadly force violated any clearly established right of
Nehad to be free from excessive force. See Anderson v.
Creighton, 483 U.S. 635, 640 (1987) (“The contours of
the right must be sufficiently clear that a reasonable
official would understand that what he is doing
violates that right.”). Officer Browder was forced to
60a

make “split-second judgments—in circumstances that
[were] tense, uncertain, and rapidly evolving—about
the amount of force that is necessary in a particular
situation.” Graham, 490 U.S. at 396–97. Unlike Estate
of Lopez by and through Lopez, postdating this case,
and George v. Morris, 736 F.3d 829 (9th Cir. 2013)
relied upon as clearly established precedent in Lopez,
Officer Browder was confronted with objectively
threatening behavior from a suspect reported to have
threatened an individual with a knife.
Plaintiffs further assert that the exception to
the requirement of pre-existing precedent in an
“obvious case” applied to put Officer Browder on notice
of the unlawfulness of his conduct. Brosseau v.
Haugen, 543 U.S. 194, 199 (2004). In Isayeva v.
Sacramento Sheriff’s Dep’t, 872 F.3d 938 (2017), the
Court of Appeals recently affirmed that the general
standard in Garner6 and Graham can clearly establish
law governing the use of deadly force “even without a
body of relevant case law.” Id. at 951. The Court of
Appeals stated: “We recently held in Hughes that an
officer was not entitled to qualified immunity for his
shooting of an individual in part because, when the
facts were construed in plaintiff’s favor, the officer’s
use of deadly force was . . . ‘obvious[ly]’ unlawful.” Id.
(quoting Hughes, 862 F.3d at 785). “[T]aking the facts
in the light most favorable to the plaintiff and
comparing them to the facts in available precedent
involving excessive force,” the Court of Appeals held
that “no officer could have reasonably believed that the
6

Tennessee v. Garner, 471 U.S. 1 (1985).

61a

plaintiff posed a risk of serious injury or death.” Id. at
951-52.
In this case, construing the facts in the light
most favorable to Plaintiffs, the Court concludes that
Officer Browder had a reasonable belief based upon
the objective facts that Nehad posed a risk of serious
injury to himself or others. Officer Browder had
information that Nehad had threatened others with a
knife, encountered Nehad advancing toward him in a
threatening manner, and warned Nehad to “Stop. Drop
It.” While experts may offer the opinion that Officer
Browder should have waited another second or allowed
Nehad to advance another few feet before using deadly
force, Officer Browder could have reasonably believed
that Nehad posed a risk of serious injury or death. The
Court concludes that Officer Browder’s use of force was
not obviously unlawful.
Because no case holds that conduct closely
analogous to the conduct at issue in this case violated
a plaintiff’s constitutional rights and Officer Browder’s
use of force was not obviously unlawful, the Court
concludes that Officer Browder is entitled to qualified
immunity. Officer Browder is entitled to judgment in
his favor on the federal claim under 42 U.S.C. § 1983
that excessive force was used in violation of the Fourth
Amendment.
Having dismissed any claim for liability under
42 U.S.C. § 1983 for a constitutional violation, and
based upon the undisputed facts in this case, the Court
concludes that there is no triable issue of fact as to
62a

whether any custom and practice of the San Diego
Police Department caused the shooting in this case.
Plaintiffs have failed to present evidence that any
policy or deficient training was a “moving force” behind
the shooting in this case. Monell, 436 U.S. at 694. The
Court concludes that Defendants Zimmerman and the
City are entitled to summary judgment on the Monell
claim and that Defendant Zimmerman is entitled to
summary judgment on the claim for supervisory
liability.
III.

State law claims

Because the Court concluded that Officer
Browder’s use of force was reasonable under the
objective, undisputed facts, Defendants are entitled to
summary judgment on all state law claims. Yount v.
City of Sacramento,183 P.3d 471,484 (Cal. 2008)
(“[C]ommon law battery cause of action, like his
Section 1983 claim, requires proof that [the officer]
used unreasonable force.”).
VI.

Conclusion

IT IS HEREBY ORDERED that motion for
summary judgment (ECF No. 116) filed by Defendants
Neal N. Browder, Shelley Zimmerman, and the City of
San Diego is granted.
IT IS FURTHER ORDERED that motions #114,
#115 and #121 are denied without prejudice as moot.
The Clerk of the Court shall enter judgment in
63a

favor of Defendants and against Plaintiffs.
DATED: December 18, 2017
/s/
WILLIAM Q. HAYES
United States District Judge

64a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
[DATE STAMP]
FILED
OCT 2 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
S.R. NEHAD; et al.,
Plaintiffs-Appellants,
v.
NEAL N. BROWDER; et al.,
Defendants-Appellees.
No. 18-55035
D.C. No. 3:15-cv-01386-WQH-NLS
Southern District of California, San Diego
ORDER
Before: THOMAS, Chief Judge, HAWKINS, Circuit
Judge, and PREGERSON,* District Judge.

*

The Honorable Dean D. Pregerson, United States
District Judge for the Central District of California, sitting by
designation.

65a

The panel has voted to deny the petition for
rehearing.
The full court has been advised of the petition
for rehearing en banc, and no judge of the court has
requested a vote on the petition for rehearing en banc.
Fed. R. App. P. 35(b).
The petition for rehearing and the petition for
rehearing en banc are denied.

66a

APPENDIX D
Fourth Amendment to the
United States Constitution
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons or
things to be seized.
Fourteenth Amendment to the
United States Constitution
All persons born or naturalized in the United States,
and subject to the jurisdiction thereof, are citizens of
the United States and of the state wherein they reside.
No state shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the equal
protection of the laws.
42 U.S.C. § 1983
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
67a

Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress, except that in any
action brought against a judicial officer for an act or
omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a
declaratory decree was violated or declaratory relief
was unavailable. For the purposes of this section, any
Act of Congress applicable exclusively to the District of
Columbia shall be considered to be a statute of the
District of Columbia.
Tom Bane Civil Rights Act,
2015 Cal. Stat. 5882
a) If a person or persons, whether or not acting under
color of law, interferes by threat, intimidation, or
coercion, or attempts to interfere by threat,
intimidation, or coercion, with the exercise or
enjoyment by any individual or individuals of rights
secured by the Constitution or laws of the United
States, or of the rights secured by the Constitution or
laws of this state, the Attorney General, or any district
attorney or city attorney may bring a civil action for
injunctive and other appropriate equitable relief in the
name of the people of the State of California, in order
to protect the peaceable exercise or enjoyment of the
right or rights secured. An action brought by the
68a

Attorney General, any district attorney, or any city
attorney may also seek a civil penalty of twenty-five
thousand dollars ($25,000). If this civil penalty is
requested, it shall be assessed individually against
each person who is determined to have violated this
section and the penalty shall be awarded to each
individual whose rights under this section are
determined to have been violated.
(b) Any individual whose exercise or enjoyment of
rights secured by the Constitution or laws of the
United States, or of rights secured by the Constitution
or laws of this state, has been interfered with, or
attempted to be interfered with, as described in
subdivision (a), may institute and prosecute in his or
her own name and on his or her own behalf a civil
action for damages, including, but not limited to,
damages under Section 52, injunctive relief, and other
appropriate equitable relief to protect the peaceable
exercise or enjoyment of the right or rights secured,
including appropriate equitable and declaratory relief
to eliminate a pattern or practice of conduct as
described in subdivision (a).
(c) An action brought pursuant to subdivision (a) or (b)
may be filed either in the superior court for the county
in which the conduct complained of occurred or in the
superior court for the county in which a person whose
conduct complained of resides or has his or her place
of business. An action brought by the Attorney General
pursuant to subdivision (a) also may be filed in the
superior court for any county wherein the Attorney
General has an office, and in that case, the jurisdiction
69a

of the court shall extend throughout the state.
(d) If a court issues a temporary restraining order or a
preliminary or permanent injunction in an action
brought pursuant to subdivision (a) or (b), ordering a
defendant to refrain from conduct or activities, the
order issued shall include the following statement:
VIOLATION OF THIS ORDER IS A CRIME
PUNISHABLE UNDER SECTION 422.77 OF THE
PENAL CODE.
(e) The court shall order the plaintiff or the attorney
for the plaintiff to deliver, or the clerk of the court to
mail, two copies of any order, extension, modification,
or termination thereof granted pursuant to this
section, by the close of the business day on which the
order, extension, modification, or termination was
granted, to each local law enforcement agency having
jurisdiction over the residence of the plaintiff and any
other locations where the court determines that acts of
violence against the plaintiff are likely to occur. Those
local law enforcement agencies shall be designated by
the plaintiff or the attorney for the plaintiff. Each
appropriate law enforcement agency receiving any
order, extension, or modification of any order issued
pursuant to this section shall serve forthwith one copy
thereof upon the defendant. Each appropriate law
enforcement agency shall provide to any law
enforcement officer responding to the scene of reported
violence, information as to the existence of, terms, and
current status of, any order issued pursuant to this
section.

70a

(f) A court shall not have jurisdiction to issue an order
or injunction under this section, if that order or
injunction would be prohibited under Section 527.3 of
the Code of Civil Procedure.
(g) An action brought pursuant to this section is
independent of any other action, remedy, or procedure
that may be available to an aggrieved individual under
any other provision of law, including, but not limited
to, an action, remedy, or procedure brought pursuant
to Section 51.7.
(h) In addition to any damages, injunction, or other
equitable relief awarded in an action brought pursuant
to subdivision (b), the court may award the petitioner
or plaintiff reasonable attorney’s fees.
(I) A violation of an order described in subdivision (d)
may be punished either by prosecution under Section
422.77 of the Penal Code, or by a proceeding for
contempt brought pursuant to Title 5 (commencing
with Section 1209) of Part 3 of the Code of Civil
Procedure. However, in any proceeding pursuant to
the Code of Civil Procedure, if it is determined that the
person proceeded against is guilty of the contempt
charged, in addition to any other relief, a fine may be
imposed not exceeding one thousand dollars ($1,000),
or the person may be ordered imprisoned in a county
jail not exceeding six months, or the court may order
both the imprisonment and fine.
(j) Speech alone is not sufficient to support an action
brought pursuant to subdivision (a) or (b), except upon
71a

a showing that the speech itself threatens violence
against a specific person or group of persons; and the
person or group of persons against whom the threat is
directed reasonably fears that, because of the speech,
violence will be committed against them or their
property and that the person threatening violence had
the apparent ability to carry out the threat.
(k) No order issued in any proceeding brought
pursuant to subdivision (a) or (b) shall restrict the
content of any person’s speech. An order restricting the
time, place, or manner of any person’s speech shall do
so only to the extent reasonably necessary to protect
the peaceable exercise or enjoyment of constitutional
or statutory rights, consistent with the constitutional
rights of the person sought to be enjoined.
(l) The rights, penalties, remedies, forums, and
procedures of this section shall not be waived by
contract except as provided in Section 51.7.
California Civil Code Section 52.3 (2001)
(a) No governmental authority, or agent of a
governmental authority, or person acting on behalf of
a governmental authority, shall engage in a pattern or
practice of conduct by law enforcement officers that
deprives any person of rights, privileges, or
immunities secured or protected by the Constitution or
laws of the United States or by the Constitution or
laws of California.

72a

(b) The Attorney General may bring a civil action in
the name of the people to obtain appropriate equitable
and declaratory relief to eliminate the pattern or
practice of conduct specified in subdivision (a),
whenever the Attorney General has reasonable cause
to believe that a violation of subdivision (a) has
occurred.

73a

